i\P\P&\jOT+- ^

STATE or (LLtNOlt A

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035

Scott Peters
Reg. No. M52851
Menard Correctional Center
P.O. Box 1000
Menard IL 62259

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

September 30, 2020
In re:

People State of Illinois, respondent, v. Scott Peters, petitioner.
Leave to appeal, Appellate Court, Second District.
125997

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 11/04/2020.

i

•4

, Michael J. Burke,. J., took no part.

Very truly yours,

OMt
Clerk of the Supreme Court

No. 2-18-0929
Summary Order filed February 19, 2020
NOTICE: This order was filed under Supreme Court Rule 23(c)(2) and may not be cited
as precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).

IN THE
APPELLATE COURT OF ILLINOIS
SECOND DISTRICT
THE PEOPLE OF THE STATE
OF ILLINOIS,
Plaintiff-Appellee,
v.

)
)
)
)
)

)

SCOTT PETERS,
Defendant-Appellant.

Appeal from the Circuit Court
of McHenry County.

No. 14-CF-939

)

)
)
)

Honorable
Sharon L. Prather,
Judge, Presiding.

—

JUSTICE SCHOSTOK delivered the judgment of the court.
Justices Jorgensen and Burke concurred in the judgment.
SUMMARY ORDER
1J1

In April 2015, following a jury trial, the defendant, Scott Peters, was convicted of the

attempted murder (720 ILCS 5/9-I(a)(l), (b)(1), 8-4(a) (West 2014)) of three deputy sheriffs. On
June 25, 2015, the defendant was sentenced to a total of 135 years’ imprisonment. On direct
appeal, we affirmed the defendant ’s conviction and sentence. People v. Peters, 2018 IL App (2d)
150650.

1f2

On July 14, 2017, the defendant filed a petition for postjudgment relief pursuant to section

2-1401 of the Code of Civil Procedure (735 ILCS 5/2-1401 (West 2016)). In that petition, the
defendant argued that he had been diligent in discovering that the State and the police had either

2k

No. 2-18-0929

withheld or destroyed exculpatory evidence which would have prevented his conviction. On
October 4, 2017, the trial court dismissed the defendant’s petition, finding that there were no
factual allegations to support his claim. On October 20,2017, the defendant filed a notice of appeal
from that order. That appeal was docketed in this court as Case No. 2-17-0857, and it is currently
pending.

13

On September 24, 2018, the defendant filed a pro se motion for release of evidence. In

that motion, the defendant moved for the release of a number of case files that he claimed would
aid him in preparing any postconviction petitions that he might choose to file. On September 27,
2018, the trial court denied the motion, stating that there was no basis in the law for such a motion.
On October 25, 2018, the defendant filed a notice of appeal from that order, which is the subject
of the current appeal.
If 4

On October 26, 2018, the defendant filed another motion, again requesting the release of

certain case files. On Noyember 20, 2018, the trial court denied the. motion, noting that there was • •
no petition for postconviction relief on file. The defendant filed a motion to reconsider from that
order, which the trial court denied.
IF 5

As stated, in the present case, the defendant appeals from the denial of his September 24,

2018, motion for release of evidence. We acknowledge that there are circumstances which allow
for postconviction discovery while a postconviction petition is pending. See People v. Howery,
2019 IL App (3d) 160603, f 19. However, in the present case, there was no postconviction petition
pending, and thus no basis to consider the defendant’s motion as a motion for discovery as part of
a postconviction proceeding. Accordingly, the defendant’s motion was most appropriately viewed
as a postjudgment motion.

-2-

No. 2-18-0929

If 8

Accordingly, the trial court lacked jurisdiction over the defendant’s motion and we thus

lack jurisdiction to reach the merits of this appeal. Bailey, 2014 IL 115459, Tf 29. Under these
circumstances, we have “limited” jurisdiction to consider the issue of jurisdiction below, and the
appropriate course is to vacate the trial court’s ruling on the motion and to dismiss the defendant’s
motion. Id.

19

For the reasons stated, we vacate the trial court’s September 27, 2018, denial of the

defendant’s pro se motion for release of evidence and dismiss the defendant’s September 24,2018,
motion for lack of jurisdiction.
If 10

Order vacated; motion dismissed.

-4-

p^fixibTAd'

